               Office of Inspector General




        February 1, 2005

        JON M. STEELE
        VICE PRESIDENT, NORTHEAST AREA OPERATIONS

        SUBJECT: Audit Report – Self-Service Vending Program –
                 Northeast Area (Report Number DR-AR-05-011)

        This is one of a series of audit reports on the Postal Service’s Self-Service Vending
        Program. The report summarizes the results of our self-initiated audits on the
        Self-Service Vending Program in the Northeast Area (Project Number
        04YG017DR000). The information in this area report will be included in a
        nationwide capping report that will provide the Vice President, Delivery and Retail,
        an assessment of the Self-Service Vending Program.

                                                      Background

        The Self-Service Vending Program, implemented in October 1964, is one of the
        Postal Service’s major programs. It provides Postal Service customers with a
        convenient alternative for purchasing stamps and other basic Postal Service
        products after business hours and without the need to stand in line during business
        hours.

        Nationwide, the Postal Service maintains approximately 30,000 vending machines
        (27,000 self-service postal centers and 3,000 other types of vending equipment)
        that generated over $1.9 billion in revenue during fiscal years (FY) 2001 through
        2003. The Northeast Area had 7 percent (2,113) of the nationwide total vending
        equipment that generated 2 percent ($29.69 million) of the nationwide revenue total
        during FY 2003. During the first quarter of FY 2004, the Northeast Area had
        2,176 pieces1 of vending equipment that generated $8.67 million in revenue.
        (See Appendix A for equipment and revenue details by district.)

                                         Objective, Scope, and Methodology

        The objective of our audit was to determine whether the Self-Service Vending
        Program is effectively and efficiently meeting program goals of increasing revenue

1
    During the first quarter of FY 2004, the Northeast Area had 63 additional vending machines.

      1735 N Lynn St
      Arlington, VA 22209-2020
      (703) 248-2100
       Fax: (703) 248-2256
Self-Service Vending Program –                                                DR-AR-05-011
 Northeast Area



    and reducing operating costs. Specifically, in this review, we determined whether
    Self-Service Vending Program Managers effectively redeployed vending equipment
    that did not meet minimum revenue requirements in order to maximize revenue,
    and discontinued the use of obsolete vending equipment. We also physically
    observed a judgmental sample of 60 vending machines to determine whether the
    machines were operational and easily accessible. For the 2,113 vending machines
    operating in the Northeast Area during FY 2003, 269 were classified as obsolete
    based on Postal Service guidance, while the remaining 1,844 were classified as
    current equipment. For the first quarter of FY 2004, 2,176 vending machines were
    operating in the Northeast Area, of which 278 were classified as obsolete, and the
    remaining 1,898 were classified as current equipment.

    During our audit, we visited Postal Service facilities in the Albany, Boston, and
    Massachusetts Districts. We interviewed managers and employees; reviewed
    documentation and applicable policies and procedures; and analyzed data for all
    Northeast Area Districts in the Postal Service’s Vending Equipment Sales and
    Service System (VESS) for FY 2003 through first quarter of 2004 to identify
    obsolete equipment and equipment that did not meet the minimum revenue
    requirements. Although we relied on data obtained from the VESS, we did not
    establish the reliability of this data due to time constraints. However, we are
    planning a separate audit to determine the accuracy of the VESS data. The missed
    revenue opportunities dollars in the report will not be affected by reliability of the
    data because the calculations were based on estimated dollar ranges for a period
    when the underperforming equipment was not redeployed.

    Audit work associated with the Northeast Area was conducted from March 2004
    through February 2005 in accordance with generally accepted government auditing
    standards, and included such tests of internal controls as were considered
    necessary under the circumstances. We discussed our observations and
    conclusions with appropriate management officials and included their comments,
    where appropriate.

                                   Prior Audit Coverage

    The Office of Inspector General (OIG) has issued three reports related to the
    objective of this audit. These issues are also discussed in this report.

    Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-
    003, June 30, 2004), Self-Service Vending Program - Alabama District (Report
    Number DR-AR-04-004, June 30, 2004), and Self-Service Vending Program -
    Atlanta District (Report Number DR-AR-04-002, July 1, 2004). The reports stated
    district officials could improve their process for redeploying vending equipment that
    does not meet minimum revenue requirements. In FY 2003, 54 percent (857 of
    1,573) of the vending machines in the Tennessee, Alabama, and Atlanta Districts
    did not meet the minimum revenue requirements and the districts may have missed


                                            2
Self-Service Vending Program –                                                                         DR-AR-05-011
 Northeast Area



     revenue opportunities totaling approximately $2.7 to $8.5 million by not redeploying
     this equipment. Additionally, these districts continued to use 250 obsolete
     machines and possibly incurred maintenance and repair expenses. Management
     agreed with all recommendations and the actions taken and planned were
     responsive to the recommendations.

                                                    Audit Results

     Opportunities exist for Northeast Area officials to improve the effectiveness and
     efficiency of the Self-Service Vending Program and to meet or exceed program
     goals of increasing revenue and reducing operating costs. Officials could increase
     revenue opportunities by redeploying equipment that does not meet minimum
     revenue requirements. Our review indicated 80 percent (1,478 of 1,844) of the
     vending machines operating in the Northeast Area did not meet the minimum
     revenue requirements during FY 2003 and the Northeast Area may have missed
     revenue opportunities totaling approximately $6.35 million to $19.62 million by not
     redeploying this equipment. Further, Northeast Area officials could possibly reduce
     maintenance and repair costs by discontinuing the use of obsolete equipment.
     Additionally, our physical observation of vending machines in the Northeast Area
     indicated that overall the machines were operational and easily accessible, with few
     exceptions. These exceptions were presented in reports to the Albany,2 Boston,3
     and Massachusetts4 District Managers and are not addressed in this report.

     Redeployment of Vending Equipment

     Northeast Area officials could improve their process for redeploying vending
     equipment that does not meet minimum revenue requirements. Specifically, our
     review of the vending equipment revenue reports for FY 2003 indicated 82 percent
     (578 of 709) of the vending machines for the Albany, Boston, and Massachusetts
     Districts did not meet the minimum revenue requirements. Vending equipment
     sales for these districts were approximately $5.70 million, which was significantly
     less than the minimum revenue requirement of $14.10 million. As a result, these
     districts may have missed revenue opportunities of approximately $2.69 to $8.40
     million by not redeploying this equipment.5 (See Appendix B, Table 1 for details.)


2
  Self-Service Vending Program – Albany District (Report Number DR-AR-04-006, dated September 13, 2004).
3
  Self-Service Vending Program – Massachusetts District (Report Number DR-AR-04-008, dated September 24,
2004).
4
  Self-Service Vending Program – Boston District (Report Number DR-AR-05-002, dated October 14, 2004).
5
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $2.69 million represents
the minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $8.40 million represents the maximum total possible missed
revenue opportunities for FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.



                                                        3
Self-Service Vending Program –                                                                      DR-AR-05-011
 Northeast Area



     Additionally, during the same period, our review of the vending equipment revenue
     reports indicated that 79 percent (900 of 1,135) of the vending machines in the
     Connecticut, Maine, New Hampshire/Vermont, Southeast New England, and
     Western New York Districts did not meet minimum revenue requirements during
     FY 2003. Vending equipment sales for these districts were $7.69 million, which
     was significantly less than the minimum revenue requirement of $19.10 million.
     As a result, these districts may have missed revenue opportunities of $3.66 to
     $11.41 million by not redeploying this equipment.6 (See Appendix B Table 2 for
     details.)

     During the first quarter of FY 2004, our review of the vending equipment revenue
     reports for the Albany, Boston, and Massachusetts Districts indicated 75 percent
     (543 of 726) of the vending machines did not meet the minimum revenue
     requirements. Vending equipment sales were $1.30 million, which was significantly
     less than the average minimum revenue requirement of $2.99 million. As a result,
     these districts may have missed revenue opportunities of $1.69 million by not
     redeploying vending equipment. (See Appendix B, Table 3 for details.)

     During the same period, our review of the vending equipment revenue reports
     indicated that 73 percent (860 of 1,172) of the vending machines in the
     Connecticut, Maine, New Hampshire/Vermont, Southeast New England, and
     Western New York Districts did not meet minimum revenue requirements. Vending
     equipment sales for these districts were approximately $1.67 million, which was
     significantly less than the minimum revenue requirement of $4.03 million. As a
     result, these district locations may have missed revenue opportunities of
     approximately $2.36 million by not redeploying this equipment. (See Appendix B
     Table 4 for details.)

     One of the Self-Service Vending Program’s goals is to increase revenue through
     the redeployment of equipment. The Postal Service should redeploy equipment
     that does not meet minimum revenue requirements to other locations. Postal
     Service policy, Handbook PO-102, Self-Service Vending Operational and Marketing
     Program, Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions
     through August 7, 2003), establishes the minimum revenue requirements for
     vending machines. The district retail office is responsible for evaluating equipment
     revenue to find the right location for the right machine. If self-service vending
     equipment is located in an area where it is unable to generate enough revenue to
     meet the minimum requirement, the equipment must be considered for
     redeployment. If revenue does not meet the minimum requirement in three to
     six accounting periods, the district retail office should place the equipment on a list
     for redeployment; notify any office where changes will be made; prepare a

6
 The $3.66 million and $11.41 million represent the minimum and maximum total possible missed revenue
opportunities respectively, for FY 2003 using the same computation methodology as discussed in footnote 2.




                                                       4
Self-Service Vending Program –                                                                   DR-AR-05-011
 Northeast Area



     typewritten or computer-generated notice, approved through the district retail office,
     to be posted in the lobby informing customers 30 days before removing the
     equipment; complete Postal Service Form 4805, Maintenance Work Order, and
     move the equipment to a better location.

     Albany, Boston, and Massachusetts District officials did not complete redeployment
     action for the underperforming vending machines during FY 2003 and the
     first quarter of FY 2004 because the Self-Service Vending Program was not
     considered a high priority and limited resources were allocated to the program. In
     the Albany District, work efforts were directed to higher priorities such as
     implementing Point of Sale throughout the district. Boston District officials took
     action to redeploy 5 of the 142 vending machines that did not meet minimum
     revenue requirements in FY 2003. By not taking action to redeploy
     underperforming equipment, the districts could miss revenue opportunities during
     the remaining quarters of FY 2004.

     District officials expressed concern regarding the Postal Service’s methodology to
     establish minimum revenue requirements, and the machine’s lack of capability to
     accept debit and credit cards. District officials also expressed concern regarding
     the limited availability of high demand vending machines, to include model PBSM
     624 machines, and the lack of standardized equipment throughout the districts. We
     plan to forward these concerns to Postal Service Headquarters.

     We discussed the results with Northeast Area and district officials and they agreed
     they could improve their redeployment process for equipment that does not meet
     the Postal Service’s minimum revenue requirements. Northeast Area officials
     stated threshold revenue targets were established long before first-class stamp
     revenue started to decrease. In addition, management stated that now stamps are
     available by phone, fax, and online. These options were not available when the
     obsolete vending machines were first deployed. Management stated that they have
     an active vending redeployment program and that in light of aggressive revenue
     goals, underperforming equipment is not necessarily removed. Management
     further stated that if the machines are in need of repeated maintenance, the
     Northeast Area removes such equipment. District officials indicated that the
     Self-Service Vending Program was not considered a high-priority and work efforts
     were directed to higher priorities such as the automated postal centers.7




7
 Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.



                                                     5
Self-Service Vending Program –                                                                   DR-AR-05-011
 Northeast Area



     Recommendation

     We recommend the Vice President, Northeast Area, direct the District and Retail
     Managers to:

         1. Review revenue reports to identify underperforming equipment, notify
            postmasters of vending equipment that generates low revenue; and giving
            consideration to all feasible alternatives, complete all necessary actions to
            redeploy underperforming equipment as often as possible.

     Management’s Comments

     Management agreed in part with the finding and recommendation in subsequent
     correspondence to the OIG. Management stated that while the vending machines
     are not meeting the minimum revenue requirements established by Postal Service
     Headquarters, if they removed the machines for underperformance, there are no
     replacements. However, management supplied all districts in the Northeast Area
     with the current information in VESS and FY 04 performance by machine. District
     Marketing and the Retail Managers are responsible for working with Operations to
     correct all information in VESS and update the database by January 15, 2005.
     Each district will identify a minimum of three pieces of vending equipment with low
     revenue and low potential. Postal Service Headquarters has discontinued off-site
     deployment of vending equipment; therefore, these locations will be examined first.
     Post offices with predominately cash transactions will be reviewed as possible
     locations to relocate underperforming equipment. Management will be redeploying
     a minimum of ten vending machines within the Northeast Area by March 1, 2005.
     Management will monitor revenue and revenue growth potential for these units for a
     90-day period prior to any further redeployment. Management’s formal comments
     are included in Appendix D of this report.

     Evaluation of Management’s Comments

     Management’s comments are responsive to our recommendation. Management’s
     actions taken or planned should correct the issues identified in the finding.

     Use of Obsolete Equipment

     In FY 2003, Albany, Boston, and Massachusetts District officials continued to use
     1318 obsolete machines and possibly incurred maintenance and repair expenses,
     although Postal Service policy discontinued the maintenance and repair support for



8
 This number does not include 15 currency changer machines that do not generate revenue. They are located in the
Albany (four machines) and Massachusetts (eleven machines) Districts.



                                                      6
Self-Service Vending Program –                                                                   DR-AR-05-011
 Northeast Area



     the machines in June 2000.9 Our review of vending equipment revenue reports for
     the three district locations indicated 98 percent (129 of 131) of these vending
     machines did not meet minimum revenue requirements during FY 2003. During the
     first quarter of FY 2004, district officials continued to use 135 obsolete machines
     and 96 percent (130 of 13510 ) of the vending machines did not meet minimum
     revenue requirements. District officials stated they continued to use and maintain
     this equipment because of the potential adverse impact on customer service since
     replacement equipment was not available. As a result, the Northeast Area possibly
     incurred maintenance and repair expenses in FY 2003 and the first quarter of
     FY 2004, by allowing the operation and maintenance of these machines in the
     three district locations. We were unable to determine the amount of repair and
     maintenance expenses associated with these machines because the Postal Service
     does not capture the data for each machine.11 (See Appendix C, Tables 1 and 3 for
     details.)

     Additionally, during the same period, Connecticut, Maine, New Hampshire/Vermont,
     Southeast New England, and Western New York District officials continued to use
     10012 obsolete machines and possibly incurred maintenance and repair expenses.
     Our review of the vending equipment revenue reports indicated 95 percent (95 of
     100) of these machines did not meet minimum revenue requirements during FY
     2003. During the first quarter of FY 2004, these districts continued to use 10313
     obsolete machines and 96 percent (99 of 103) did not meet minimum revenue
     requirements. As a result, the Northeast Area possibly incurred maintenance and
     repair expenses that may have exceeded the revenue generated by allowing the
     operation and maintenance of these machines in the six district locations. We were
     unable to determine the amount of repair and maintenance expenses associated
     with these machines because the Postal Service does not capture the data for each
     machine. (See Appendix C, Tables 2 and 4 for details.)

     Periodically, the Postal Service lists vending equipment as obsolete, meaning the
     equipment has exceeded its expected life cycle and will no longer receive support
     from maintenance organizations. All inactive retail vending equipment items must
     be reported to the district material management specialist. When retail vending
     equipment items are obsolete or listed as excess, the Postal Service may consider

9
  This policy supplements Maintenance Management Order (MMO), MMO-018-96, June 21, 1996, Discontinuance of
Support for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models
of vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.
10
   This number excludes 15 currency changer machines, which do not generate revenue. They are located in Albany
(four machines) and Massachusetts (eleven machines) Districts.
11
   We plan to address this issue in a capping report to Postal Service Headquarters officials.
12
   This number does not include 23 currency changers that do not generate revenue. They are located in the
Connecticut (1 machine), Southeast New England (21 machines), and Western New York (1 machine) Districts.
13
   This number excludes 25 currency changer machines, which do not generate revenue. They are located in the
Connecticut (1 machine), New Hampshire/Vermont (2 machines), Southeast New England (21 machines), and
Western New York (1 machine) Districts.




                                                     7
Self-Service Vending Program –                                                 DR-AR-05-011
 Northeast Area



    them for disposal action. Parts from obsolete machines may be salvaged and
    stored for maintenance or repair of other compatible equipment. In June 2000,
    Postal Service policy listed the obsolete vending equipment that should no longer
    receive support from maintenance organizations.

    By continuing to use and maintain obsolete machines, the Northeast Area will
    possibly incur repair and maintenance costs that may exceed the revenue
    generated. We recognize management’s desire to provide customer service;
    however, because the Postal Service does not capture repair and maintenance
    expense, management has no means of assessing whether the benefits of
    operating the obsolete equipment outweigh the cost to operate it. District officials
    indicated plans will be made to replace the obsolete machines with current
    equipment when the new automated postal centers are deployed to the district
    locations.

    Recommendation

    We recommend the Vice President, Northeast Area, direct the District and Retail
    Managers to:

        2. Consider all feasible alternatives and complete all necessary actions to
           eliminate repair and maintenance cost for the obsolete equipment.

    Management’s Comments

    Management agreed in part with our finding and recommendation in subsequent
    correspondence to the OIG. Management stated the Postal Service does not have
    a system in place to attribute maintenance and repair costs to specific vending
    units, therefore, OIG’s conclusion the district could possibly incur maintenance cost
    on some equipment may be valid. At the conclusion of each postal quarter, District
    Marketing and Retail Managers will contact Field Maintenance to identify machines
    incurring repetitive repairs. Management further stated this information will be
    validated and forwarded to maintenance for response, as to whether to withdraw
    the vending unit from service and add the usable components to inventory.

    Evaluation of Management’s Comments

    Management’s comments are responsive to our recommendation. Management’s
    actions taken or planned should correct the issues identified in the finding.

    The OIG considers recommendations 1 and 2 significant, and therefore requires
    OIG concurrence before closure. Consequently, the OIG requests written
    confirmation when corrective action(s) are completed. These recommendations




                                           8
Self-Service Vending Program –                                                DR-AR-05-011
 Northeast Area



    should not be closed in the follow-up tracking system until the OIG provides written
    confirmation the recommendations can be closed.

    We appreciate the cooperation and courtesies provided by your staff. If you have
    any questions, or need additional information, please contact Rita F. Oliver, Acting
    Director, Delivery and Retail, or me at (703) 248-2300.


    /s/ Mary W. Demory

    Mary W. Demory
    Deputy Assistant Inspector General
     for Core Operations

    Attachments

    cc:    William P. Galligan
           Steven R. Phelps




                                          9
Self-Service Vending Program –                                                                                                     DR-AR-05-011
 Northeast Area




                                                    APPENDIX A
                                                 VENDING MACHINES
Table 1

                                                             FY 2003
                                                 Northeast Area Vending Machines




                        381

                                                                                                                 323
                                                                                                  294                           306
                                                      281


                                                                      226


                                       151                                            151




                 M assachusetts   Boston (7%)    New England       New         M aine (7%)   Connecticut   Albany (16%)   Western New
                      (18%)                         (13%)      Hamp./Vermont                   (14%)                       York (14%)
                                                                   (11%)

                                                 Percent of Total Machines (2,113 Total)


Table 2                                               First Quarter FY 2004
                                                Northeast Area Vending Machines




                         393


                                                                                                                 327
                                                                                                   305                          320
                                                       285

                                                                      232


                                        156                                           158




                 M assachusetts   Boston (7%)    New England     New           M aine (7%)   Connecticut   Albany (15%)   Western New
                      (18%)                         (13%)    Hamp./Vermont                     (14%)                       York (15%)
                                                                 (11%)

                                                Percent of Total Machines (2,176 Total)




                                                                     10
Self-Service Vending Program –                                                                                                                                 DR-AR-05-011
 Northeast Area




                                APPENDIX A
                    VENDING MACHINE REVENUE (CONTINUED)

Table 3                                                            FY 2003
                                                            Northeast Area Revenue
                                                                ($29.69 Million)
                                                                                                                                                    6.55



                                                                                                               5.16
                     4.75


                                                                                                                                  3.83
                                                                             3.53



                                        2.36              2.25


                                                                                                1.26




              M assachusetts     Boston (8%)         New England          New            M aine (4%)     Connecticut      Albany (13%)       Western New
                   (16%)                                (8%)         Hamp./ Vermont                        (17%)                              York (22%)
                                                                         (12%)

                                                           Percentage of Total Area Revenue
                                                                    ($29.69 Million)

Table 4
                                                         First Quarter FY 2004
                                                        Northeast Area Revenue
                                                      (Approximately $8.67 Million)



                                                                                                                                                     1.91


                                                                                                                 1.46
                       1.36


                                                                               1.06                                                1.10


                                          0.75              0.68


                                                                                                  0.35




              M assachuset t s   B o st o n ( 8 %)   N ew Eng land        N ew           M aine ( 4 %)   C o nnect icut   A lb any ( 13 %)   W est ern N ew
                   ( 16 %)                               ( 8 %)      Hamp ./ V ermo nt                       ( 16 %)                         Y o rk ( 2 2 %)
                                                                         ( 13 %)

                                 Percentage of Total Area Revenue (Approximately $8.67 Million)




                                                                                  11
          Self-Service Vending Program –                                                                      DR-AR-05-011
           Northeast Area




                                                      APPENDIX B
                                                   REVENUE ANALYSIS

          Table 1
                                                              FY 2003
                                                        Vending Equipment
                                            Albany, Boston, and Massachusetts Districts

                                                    Machines Not                      Machines          Minimum            Maximum
                   Total         Machines             Meeting            Total        Minimum             Missed             Missed
                  Current         Meeting            Minimum            Machine       Revenue            Revenue            Revenue
  District       Vending         Revenue              Revenue            Sales       Requirement       Opportunities      Opportunities
 Locations       Machines       Requirement         Requirement        (millions)     (millions)        (millions)         (millions)



Albany              260              57                  203              1.60            4.00              0.80                 2.40
Boston              137              19                  118              1.50            3.50              0.59                 2.00
Massachusetts       312              55                  257              2.60            6.60              1.30                 4.00
 Total              709             131                  578              5.70           14.10              2.69                 8.40

          Note: Based on the information in Table 1 above, in FY 2003, 18 percent (131 of 709) of the machines in the Albany,
          Boston, and Massachusetts Districts met the minimum revenue requirements and 82 percent (578 of 709) did not
          meet the requirements.



          Table 2
                                                                      FY 2003
                                                                  Vending Equipment
                                                Connecticut, Maine, New Hampshire/Vermont, Southeast New England,
                                                          and Western New York Districts

                                                                                     Machines          Minimum           Maximum
                        Total        Machines         Machines Not       Total       Minimum             Missed            Missed
                       Current        Meeting           Meeting         Machine      Revenue            Revenue           Revenue
     District         Vending        Revenue            Revenue          Sales      Requirement       Opportunities     Opportunities
    Locations         Machines      Requirement       Requirement      (millions)    (millions)        (millions)        (millions)

Connecticut               283             57               226            2.73           6.35              1.08                 3.62
Maine                     141             17               124            0.68           1.85              0.37                 1.17
New Hampshire/            218             55               163            1.29           3.56              0.80                 2.27
Vermont
SE New England            211             23               188            1.18           3.62              0.84                 2.44
Western New York          282             83               199            1.81           3.72              0.57                 1.91
  Total                 1,135             235              900            7.69           19.10             3.66             11.41

          Note: Based on the information in Table 2 above, in FY 2003, 21 percent (235 of 1,135) of the machines in the
          Connecticut, Maine, New Hampshire, Southeast New England, and Western New York Districts met the minimum
          revenue requirements and 79 percent (900 of 1,135) did not meet the requirements.




                                                                 12
Self-Service Vending Program –                                                                            DR-AR-05-011
 Northeast Area




                                      APPENDIX B
                             REVENUE ANALYSIS (CONTINUED)

Table 3
                                               FY 2004 – First Quarter
                                                Vending Equipment
                                      Albany, Boston, and Massachusetts Districts

                                                            Machines                            Machines         Maximum
                               Total        Machines       Not Meeting          Total           Minimum            Missed
                              Current        Meeting        Minimum            Machine          Revenue           Revenue
                             Vending        Revenue         Revenue             Sales          Requirement      Opportunities
    District Locations       Machines      Requirement     Requirement        (millions)        (millions)       (millions)


 Albany                         264             79              185              0.34             0.84                0.50
 Boston                         142             27              115              0.37             0.75                0.38
 Massachusetts                  320             77              243              0.59             1.40                0.81


            Total               726            183              543              1.30              2.99               1.69

Note: Based on the information in Table 3 above, in the first quarter of FY 2004, 25 (183 of 726) of the machines in
the Albany, Boston, and Massachusetts Districts met the minimum revenue requirements and 75 percent (543 of 726)
did not meet the requirements.



Table 4
                                            FY 2004 – First Quarter
                                              Vending Equipment
                           Connecticut, Maine, New Hampshire/Vermont, Southeast New England,
                                            and Western New York Districts

                                                                Machines Not                       Machines           Maximum
                                              Machines            Meeting             Total        Minimum              Missed
                          Total Current        Meeting           Minimum             Machine       Revenue             Revenue
                            Vending           Revenue             Revenue             Sales       Requirement        Opportunities
 District Locations        Machines          Requirement        Requirement         (millions)     (millions)         (millions)


 Connecticut                   293                   72               221               0.67           1.40              0.73
 Maine                         148                   23               125               0.18           0.42              0.24
 New Hampshire/                222                   65               157               0.27           0.77              0.50
 Vermont
 SE New England                215                   42               173               0.25           0.73              0.48
 Western New York              294                114                 180               0.30           0.71              0.41
          Total               1,172               316                 856               1.67           4.03              2.36


Note: Based on the information in Table 4 above, in the first quarter of FY 2004, 27 percent (316 of 1,172) of the
machines in the Connecticut, Maine, New Hampshire/Vermont, Southeast New England, and Western New York
Districts met the minimum revenue requirements and 73 percent (856 of 1,172) did not meet the requirements.




                                                          13
Self-Service Vending Program –                                                                         DR-AR-05-011
 Northeast Area




                                           APPENDIX C
                                       OBSOLETE EQUIPMENT

           Table 1
                                                      FY 2003
                                          Obsolete Vending Equipment
                                     Albany, Boston, and Massachusetts Districts

                                        Total Obsolete           Machines Meeting
                                           Vending                  Revenue             Machines Not Meeting Revenue
               District Locations         Machines                 Requirement                  Requirement


            Albany                                     59                           0                                 59
            Boston                                     14                           0                                 14
            Massachusetts                              58                           2                                 56


            Total                                    131                            2                                 129

           Note: Based on the information in Table 1 above, in FY 2003, 2 percent (2 of 131) of the machines in the
           Albany, Boston, and Massachusetts Districts met the minimum revenue requirements and 98 percent
           (129 of 131) did not meet the requirements.



           Table 2
                                                          FY 2003
                                              Obsolete Vending Equipment
                                     Connecticut, Maine, New Hampshire/Vermont, Southeast New England,
                                                  and Western New York Districts

                                        Total Obsolete
                                           Vending            Machines Meeting          Machines Not Meeting Revenue
               District Locations        Machines14          Revenue Requirement                Requirement


            Connecticut                               10                            1                                  9
            Maine                                     10                            1                                  9
            New                                        8                            0                                  8
            Hampshire/Vermont
            Southeast New England                     49                            2                                 47
            Western New York                          23                            1                                 22
            Totals                                  100                             5                                 95


           Note: Based on the information in Table 2 above, in FY 2003, 5 percent (5 of 100) of the machines in the
           Connecticut, Maine, New Hampshire/Vermont, SE New England, and Western New York Districts met the
           minimum revenue requirements and 95 percent (95 of 100) did not meet the requirements.


14
     Total obsolete vending machines do not include coin changers.



                                                            14
Self-Service Vending Program –                                                                            DR-AR-05-011
 Northeast Area



                                      APPENDIX C
                            OBSOLETE EQUIPMENT (CONTINUED)

           Table 3
                                                    FY 2004
                                          Obsolete Vending Equipment
                                      Albany, Boston, and Massachusetts Districts

                                      Total Obsolete
                                         Vending            Machines Meeting              Machines Not Meeting Revenue
                                                 15
             District Locations        Machines            Revenue Requirement                    Requirement


           Albany                                    59                             1                                      58
           Boston                                    14                             1                                      13
           Massachusetts                             62                             3                                      59


           Total                                   135                              5                                      130

           Note: Based on the information in Table 3 above, in the first quarter of FY 2004, 4 percent (5 of 135) of the
           machines in the Albany, Boston and Massachusetts Districts met the minimum revenue requirements and
           96 percent (130 of 135) did not meet the requirements.

           Table 4
                                                        FY 2004
                                             Obsolete Vending Equipment
                                  Connecticut, Maine, New Hampshire/Vermont, Southeast New England,
                                                and Western New York Districts

                                      Total Obsolete
                                         Vending            Machines Meeting              Machines Not Meeting Revenue
             District Locations        Machines16          Revenue Requirement                    Requirement


          Connecticut                                11                             1                                       10
          Maine                                      10                             1                                       9
          New                                         8                             1                                       7
          Hampshire/Vermont
          Southeast New England                      49                             1                                      48
          Western New York                           25                             0                                      25
          Totals                                   103                              4                                      99

           Note: Based on the information in Table 4 above, in the first quarter of FY 2004, 4 percent (4 of 103) of the
           machines in the Connecticut, Maine, new Hampshire/Vermont, Southeast New England and Western New
           York Districts met the minimum revenue requirements and 96 percent (99 of 103) did not meet the
           requirements.



15
     Total Obsolete Vending Machines does not include coin changers.
16
     Total Obsolete Vending Machines does not include coin changers.



                                                           15
Self-Service Vending Program –                             DR-AR-05-011
 Northeast Area



                       APPENDIX D. MANAGEMENT’S COMMENTS




                                   16
Self-Service Vending Program –        DR-AR-05-011
 Northeast Area




                                 17
